                                                                             Report No. DODIG 2013-128




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              September 19, 2013




                     Air Force and Army Corps of
                     Engineers Improperly Managed
                     the Award of Contracts for the
                     Blue Devil Block 2 Persistent
                     Surveillance System




I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Air Force and Army Corps of Engineers Improperly
                                       Managed the Award of Contracts for the
                                       Blue Devil Block 2 Persistent Surveillance System


September 19, 2013                                     Findings Continued

Objective                                              and contracting personnel. This occurred because Air Force
                                                       A2 personnel inappropriately acted in a program management
Our audit objective was to determine whether           capacity by disregarding Air Force Research Laboratory (AFRL)
Army Corps of Engineers and Air Force                  personnel’s assessments that did not support the 24-month
personnel properly awarded and administered            development schedule used to obtain approval and funding for
contracts for the acquisition of the Blue Devil        Blue Devil Block 2.
Block 2 surveillance system.
                                                       In addition, 645th Aeronautical Systems Group (645th AESG)
                                                       contracting personnel awarded the second Blue Devil Block 2
                                                       contract in March 2011, to develop and field Blue Devil Block 2
                                                       in an unachievable time frame. This occurred because the
                                                       Director of Information Dominance Programs, Assistant Secretary
                                                       of the Air Force for Acquisition (Director, SAF/AQI) inappropriately
                                                       directed 645th AESG personnel in November 2010 to expedite
                                                       fielding of Blue Devil Block 2 despite AFRL and 645th AESG
                                                       assessments that determined the delivery time frame was
                                                       unachievable and Blue Devil Block 2 was not suited for rapid
                                                       fielding. As a result, the warfighter did not receive an urgently
                                                       needed capability, and about $149 million was wasted on a system
                                                       the contractor did not complete.
      Figure. Blue Devil Block 2
      Source: 645th Aeronautical Systems Group
                                                       ERDC personnel improperly awarded a contract for Wide Area
                                                       Surveillance Platform (WASP) on August 11, 2010. Specifically,
Findings                                               ERDC personnel inappropriately awarded a level of effort
Air Force personnel did not properly manage            research and development contract for a known Air Force and
the award of contracts for the urgently needed         Joint Improvised Explosive Device Defeat Organization (JIEDDO)
Blue Devil Block 2 persistent surveillance             requirement. This occurred because ERDC personnel misused the
system. Specifically, Air Force Intelligence,          broad agency announcement process. In addition, ERDC personnel
Surveillance, and Reconnaissance (Air Force A2)        did not properly administer the WASP contract. As a result,
personnel improperly offloaded the award               ERDC personnel initiated development of an Air Force system that
of the first Blue Devil Block 2 contract in            included the development of a large airship without adequately
August 2010, to the Army Corps of Engineers            assessing technical feasibility and cost, which contributed
Engineer Research and Development Center               to the failure to fulfill an urgent operational need. Further,
(ERDC), instead of using Air Force program             ERDC personnel charged about $1.1 million in questioned costs that
                                                       were not commensurate with the amount of work performed.



Visit us on the web at www.dodig.mil


                                                                            DODIG-2013-128 (Project No. D2012-D000CG-0169.000) │ i
                                       Results in Brief
                                       Air Force and Army Corps of Engineers Improperly
                                       Managed the Award of Contracts for the
                                       Blue Devil Block 2 Persistent Surveillance System



  Recommendations                                                  Management Comments and Our Response (cont’d)

  We recommend the Air Force determine whether                     concurred the 645th Aeronautical Systems group should only
  Air Force A2 should be assigned a program or contracting         be used for efforts appropriate for quick reaction contracting.
  office and only use the capabilities of the 645th Aeronautical
  Systems Group for systems appropriate for quick reaction         Comments from the Principal Deputy Assistant Secretary
  contracting that can be accomplished in an achievable            of the Air Force for Financial Management and Comptroller,
  time frame.                                                      responding on behalf of the Chief of Staff of the Air Force,
                                                                   were not responsive to our recommendation to assess
  We recommend the Army Corps of Engineers provide                 whether an Air Force program and contracting organization
  training to identify initiatives inappropriate for ERDC;         should be designated for quick reaction capability
  develop stricter guidance for contract review; and review        development and fielding of Intelligence, Surveillance, and
  performance of the contracting officer who awarded the           Reconnaissance initiatives.
  Blue Devil Block 2 contract; and refund the Air Force
  $1,137,000 in administrative fees unless an independent          The Army Corps of Engineers Principal Assistant Responsible
  review substantiates that questioned costs were valid            for Contracting–Winchester, provided responsive comments
  expenses.                                                        that included enhanced training as well as an incurred cost
                                                                   review of contract W912HZ-10-C-0085 by the Defense
                                                                   Contract Audit Agency. The Director, ERDC provided
  Management Comments and                                          responsive comments that included enhanced oversight and
  Our Response                                                     guidance on proper use of the broad agency announcement
                                                                   and administrative action for personnel responsible for
  The Principal Deputy Assistant Secretary of the Air Force for
                                                                   contract W912HZ-10-C-0085.
  Financial Management and Comptroller provided generally
  responsive comments to the draft report and agreed future
                                                                   We request the Air Force provide comments in response to
  acquisition initiatives will be assigned to and managed by
                                                                   this report. Please see the recommendations table on the
  the appropriate Air Force Program Office. Additionally, she
                                                                   following page.




ii │ DODIG-2013-128 (Project No. D2012-D000CG-0169.000)
Recommendations Table
                                         Recommendations            No Additional
         Management                      Requiring Comment        Comments Required
 The Principal Deputy Assistant
 Secretary of the Air Force for    A.1
 Financial Management and
 Comptroller
 Director for Information
 Dominance Programs, Office of                               A.2.a, A.2.b
 the Assistant Secretary of the
 Air Force for Acquisition
 Army Corps of Engineers
 Principal Assistant Responsible                             B.1.a, B.1.b, B.1.c
 for Contracting–Winchester
 Head of the Contracting
 Activity for the Army Corps of                              B.2.a, B.2.b
 Engineers Engineer Research
 and Development Center

*Please provide comments by October 21, 2013.




                                                                                      DODIG-2013-128 │ iii
                                                        INSPECTOR GENERAL
                                                         INSPECTOR GENERAL
                                                      DEPARTMENT OF DEFENSE
                                                       DEPARTMENT OF DEFENSE
                                                      4800 MARK CENTER DRIVE
                                                       4800 MARK CENTER DRIVE
                                                   ALEXANDRIA, VIRGINIA 22350-1500
                                                    ALEXANDRIA, VIRGINIA 22350-1500

                                                                                            September 19, 2013
                                                                                             September 19, 2013
                  MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY,
                   MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY,
                  			              AND LOGISTICS
                                     AND LOGISTICS
                  		             ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                                  ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                  			              MANAGEMENT AND COMPTROLLER)
                                     MANAGEMENT AND COMPTROLLER)
                  		             AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                                  AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                  SUBJECT: Air Force and Army Corps of Engineers Improperly Managed the Award of 	
                    SUBJECT: Air Force and Army Corps of Engineers Improperly Managed the Award of
                  	        Contracts for the Blue Devil Block 2 Persistent Surveillance System
                             Contracts for the Blue Devil Block 2 Persistent Surveillance System
                  	        (Report No. DODIG-2013-128)
                             (Report No. DODIG-2013-128)
                  We are providing this final report for your review and comment. This report discusses
                    We are providing this final report for your review and comment. This report discusses
                  unsuccessful Air Force efforts to rapidly develop and field a persistent surveillance capability
                    unsuccessful Air Force efforts to rapidly develop and field a persistent surveillance capability
                  in response to joint urgent operational needs. Air Force and Army Corps of Engineers
                    in response to joint urgent operational needs. Air Force and Army Corps of Engineers
                  personnel improperly managed the award of contracts for Blue Devil Block 2. As a result,
                    personnel improperly managed the award of contracts for Blue Devil Block 2. As a result,
                  the warfighter did not receive an urgently needed capability and Air Force personnel wasted
                    the warfighter did not receive an urgently needed capability and Air Force personnel wasted
                  about $149 million on a system the contractor did not complete.
                    about $149 million on a system the contractor did not complete.
                  We considered management comments on a draft of this report when preparing the final
                   We considered management comments on a draft of this report when preparing the final
                  report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
                   report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
                  Comments from the Army Corps of Engineers were responsive, and we do not require
                   Comments from the Army Corps of Engineers were responsive, and we do not require
                  additional comments. Comments from the Principal Deputy Assistant Secretary of the
                   additional comments. Comments from the Principal Deputy Assistant Secretary of the
                  Air Force for Financial Management and Comptroller were generally responsive; however,
                   Air Force for Financial Management and Comptroller were generally responsive; however,
                  comments on Recommendation A.1 were not responsive. Therefore, we request additional
                   comments on Recommendation A.1 were not responsive. Therefore, we request additional
                  comments on this recommendation by October 21, 2013.
                   comments on this recommendation by October 21, 2013.
                  If possible, send a Microsoft Word document (.doc) file and portable document format
                    If possible, send a Microsoft Word document (.doc) file and portable document format
                  (.pdf) file containing your comments to audcmp@dodig.mil. Portable document format
                    (.pdf) file containing your comments to audcmp@dodig.mil. Portable document format
                  copies of your comments must have the actual signature of the authorizing official for your
                    copies of your comments must have the actual signature of the authorizing official for your
                  organization. We are unable to accept the /Signed/ symbol in place of the actual signature.
                    organization. We are unable to accept the /Signed/ symbol in place of the actual signature.
                  If you arrange to send classified comments electronically, you must send them over the
                    If you arrange to send classified comments electronically, you must send them over the
                  SECRET Internet Protocol Router Network (SIPRNET).
                    SECRET Internet Protocol Router Network (SIPRNET).
                  We appreciate the courtesies extended to the staff. Please direct questions to me at
                   We appreciate the courtesies extended to the staff. Please direct questions to me at
                  (703) 604-8905/(DSN 664-8905).
                   (703) 604-8905/(DSN 664-8905).



                                                            Amy J. Frontz
                                                             Amy J. Frontz
                                                            Principal Assistant Inspector General for Auditing
                                                             Principal Assistant Inspector General for Auditing
                                                            Office of the Inspector General
                                                             Office of the Inspector General




iv │ DODIG-2013-128
   iv │ DODIG-2013-128
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Stakeholders for the Blue Devil Block 2________________________________________________________2
Review of Internal Controls_____________________________________________________________________9

Finding A. Developing and Fielding
Blue Devil Block 2 Under Accelerated
Time Frames Were Not Effective________________________________________ 10
Assumption of Program Management Responsibility after Disregard
of Technical Assessment ______________________________________________________________________ 10
Lost Technical Expertise and Increased Costs _ _____________________________________________ 12
Acquisition Responsibility Transitioned Back to the Air Force_____________________________ 12
Expedited Fielding of a Developmental System in an Unachievable Time Frame_________ 13
Inappropriate Assignment to the 645th AESG _______________________________________________ 14
Proper Administration of Second Contract __________________________________________________ 15
Airship Development Stops___________________________________________________________________ 16
Conclusion______________________________________________________________________________________ 17
Recommendations, Management Comments, and Our Response _________________________ 17

Finding B. Army Engineer Research and
Development Center Was Not the Appropriate Place
for Developing a Persistent Surveillance Airship____________ 20
Improper Use of the Broad Agency Announcement to Acquire a Specific System________ 20
Avoiding Competition Requirements_________________________________________________________ 21
Contract Technical Feasibility and Cost Assessments Were Inadequate __________________ 22
Contract Administration Needed Improvement_____________________________________________ 24
Implementation of Some Corrective Actions ________________________________________________ 25
Conclusion _____________________________________________________________________________________ 25
Recommendations, Management Comments, and Our Response _ ________________________ 26




                                                                                                       DODIG-2013-128 │ v
                  Contents (cont’d)
                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 29
                       Review of Documentation and Interviews_ ____________________________________________ 29
                       Prior Coverage ___________________________________________________________________________ 30
                  Appendix B. Chronology of Important Events_______________________________________________ 32
                  Appendix C. ERDC Broad Agency Announcement: Geotechnical
                  and Structures Lab Topic 10__________________________________________________________________ 37

                  Management Comments
                  Assistant Secretary of the Air Force for Financial Management
                  and Comptroller Comments___________________________________________________________________ 38
                  Principal Assistant Responsible for Contracting–Winchester Comments_________________ 40
                  Army Corps of Engineers, Engineer Research and Development
                  Center Comments _____________________________________________________________________________ 42

                  Acronyms and Abbreviations______________________________________________ 44




vi │ DODIG-2013-128
                                                                                                  Introduction




Introduction
Objective
Our objective was to determine whether the Army Corps of Engineers and Air Force
properly awarded and administered contracts for the acquisition of the Blue Devil Block 2
surveillance system. See Appendix A for the scope and methodology and prior coverage
related to the objective.


Background
The Blue Devil Block 2 was an Air Force
Intelligence, Surveillance, and Reconnaissance
(Air Force A2) initiative to provide persistent
surveillance by attaching an integrated multi-
intelligence sensor platform to an airship.
Air Force A2 personnel successfully developed
Blue Devil Block 1, which attached an
integrated multi-intelligence sensor platform
to commercially available fixed-wing aircraft.
Air Force A2 personnel developed Blue Devil
Block 2 in response to multiple Joint Urgent
Operational Needs and Air Force Urgent
Operational Needs for persistent surveillance
to detect improvised explosive devices. At
335 feet in length and a volume of greater than
1 million cubic feet, Blue Devil Block 2 was the
largest airship in the world. Figure 1 depicts      Figure 1. Blue Devil Block 2
Blue Devil Block 2 during development.              Source: 645th Aeronautical Systems Group


Air Force A2 personnel developed Blue Devil Block 2 as an operational demonstration of
persistent surveillance. Blue Devil Block 2 was to be a semi-stationary airship capable
of 5 to 7 days of surveillance attached with the sensor platform from Blue Devil Block 1.
Air Force A2 chose the Polar 1000 as the airship for Blue Devil Block 2. As proposed, the
contractor stated that the Polar 1000 airship could take off and land vertically and require
fewer personnel to assist with landing than a traditional airship. Air Force A2 personnel
became aware of the Polar 1000 during a 2009 briefing, “Wide Area Surveillance Platform




                                                                                               DODIG-2013-128 │ 1
Introduction



                 (WASP),” by ARES Systems Group, LLC. In response to the briefing, the Air Force A2
                 proposed attaching the sensor suite from Blue Devil Block 1 to the Polar 1000 airship,1
                 creating Blue Devil Block 2.


                 Stakeholders for the Blue Devil Block 2
                 DoD personnel from the Air Force and the Army Corps of Engineers were involved in the
                 acquisition of the Blue Devil Block 2. The primary organizations involved were:

                             •	 Air Force A2,

                             •	 Air Force Research Laboratory (AFRL) Headquarters (Wright Patterson
                                 Air Force Base, Fairborn, Ohio),

                             •	 Assistant Secretary of the Air Force for Acquisition (SAF/AQ),

                             •	 645th Aeronautical Systems Group (AESG) (Wright Patterson Air Force Base,
                                 Fairborn, Ohio), and

                             •	 Army Corps of Engineers Engineer Research and Development Center (ERDC)
                                 (Vicksburg, Mississippi).

                 Additionally, personnel from the Intelligence, Surveillance, and Reconnaissance Task
                 Force and the intelligence community were also interested in Blue Devil Block 2.
                 Air Force A2 personnel began development of Blue Devil Block 2 with AFRL
                 personnel and others in November 2009. ERDC personnel awarded a contract for
                 research and development of the WASP in August 2010. The Director for Information
                 Dominance Programs, Office of the Assistant Secretary of the Air Force for Acquisition
                 (Director, SAF/AQI), directed 645th AESG personnel to take charge of the acquisition in
                 November 2010. 645th AESG personnel awarded a contract to acquire Blue Devil Block 2
                 in March 2011. Then, 645th AESG personnel issued the contractor a stop work order for
                 Blue Devil Block 2 on January 4, 2012. See Appendix B for a detailed description of
                 significant events that occurred during the development of Blue Devil Block 2.


                 Assignment of the Rapid Acquisition Authority
                 The Secretary of Defense directed Rapid Acquisition Authority for Blue Devil Block 2
                 on September 30, 2010. The Secretary of Defense uses Rapid Acquisition Authority2 to


                 	1	
                     The contractor had never built the Polar 1000 airship. The contractor had demonstrated the concepts with a much smaller
                     Polar 400 model.
                 	2	
                     Public Law 107-314, “Bob Stump National Defense Authorization Act for Fiscal Year 2003,”required the Secretary of Defense
                     to develop procedures for rapid acquisition and deployment of urgently needed items.




2 │ DODIG-2013-128
                                                                                                                                         Introduction



quickly acquire and deploy urgently needed equipment to reduce the risk of casualties.
When using Rapid Acquisition Authority, any funds available to the Department of
Defense for that fiscal year may be used. The Secretary of Defense may appoint a
Responsible Senior Official with the authority to waive any provision of law3 to accelerate
fielding of urgently needed equipment. Air Force A2 personnel proposed delivery of
Blue Devil Block 2 in 12 months. The Director, SAF/AQI, formally tasked 645th AESG
personnel to rapidly develop and field Blue Devil Block 2 on December 22, 2010, after the
Secretary of the Air Force requested the program transfer from the Army to an Air Force
program office. The Secretary of Defense re-designated Senior Official Responsibilities
of the Rapid Acquisition Authority to the Secretary of the Air Force on January 26, 2011.


Air Force Intelligence, Surveillance, and Reconnaissance
Air Force Mission Directive 1-33, “Deputy Chief of Staff of the Air Force,
Intelligence, Surveillance & Reconnaissance,” September 4, 2009, specified that the
Deputy Chief of Staff for Air Force A2 serve as the focal point responsible for the end-to-
end functional management of all Air Force intelligence, surveillance, and reconnaissance
(ISR) capabilities. Air Force A2 is responsible for developing Air Force policies and
guidance for developing and managing Air Force ISR activities, as well as ISR planning,
programming, and intelligence force development.                                    Air Force A2 reports directly
to the Chief of Staff of the Air Force and also provides support to the Secretary of the
Air Force and other Secretariat Offices. The Air Force A2 Directorate of ISR innovations
is responsible for managing the rapid insertion of advanced technical solutions to
peacetime and combat Air Force operations, as well as orchestrating quick response,
deploying off-the-shelf imagery and geospatial capabilities, unmanned aerial systems,
and targeting applications. However, Air Force A2 is not a program or contracting
organization. Figure 2 portrays Air Force A2’s operational concept for Blue Devil Block 2.




	3	
      Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,” clarified the Secretary
      or his designee must determine in writing the provision of law, policy, or directive that would impede a designated rapid
      acquisition. The waiver of authority is limited to laws, policy and directives, and regulations addressing: the establishment
      of the requirement for the equipment, the research development, test, and evaluation of the equipment, or the solicitation
      and selection of sources, and the award of contracts for procuring equipment.




                                                                                                                                      DODIG-2013-128 │ 3
Introduction



                 Figure 2. Air Force A2 Blue Devil Block 2 Concept
                                     Figure 2. Air Force A2 Blue Devil Block 2 Concept




                       Source: Air Force A2
                       Legend:
                       AF-DCGS          Air Force Distributed Common Ground Station
                       DoD-DCGS         Department of Defense Distributed Common Ground Station
                       EO/IR            Electro-Optical/Infrared
                       TOC              Tactical Operations Center




                 Joint Improvised Explosive Device Defeat Organization
                 Capability Approval and Acquisition Management Process
                 Air Force A2 personnel began working Blue Devil Block 2 through the Joint Improvised
                 Explosive Device Defeat Organization Capability Approval and Acquisition Management
                 Process (JCAAMP) beginning in November 2009, to obtain program funding and
                 approval. The purpose of the JCAAMP is to approve, develop, and quickly acquire
                 counter-improvised explosive device initiatives. The Joint Improvised Explosive Device
                 Defeat Organization’s (JIEDDO) goal is to find and develop counter-improvised explosive
                 device initiatives within 4 to 12 months and deploy and assess those initiatives within
                 6 to 24 months. Air Force A2 personnel estimated Blue Devil Block 2 could be delivered
                 12 months after receipt of funding at a cost of about $243 million (total included
                 12 months for airship development with a 12-month operational demonstration
                 in Afghanistan). The Deputy Secretary of Defense approved Blue Devil Block 2 on
                 May 15, 2010, but required Blue Devil Block 2 transition to a Service or agency or be
                 terminated within 2 years of funding approval.




4 │ DODIG-2013-128
                                                                                               Introduction



Air Force Research Laboratory
The AFRL website identified its mission as leading the discovery and development
and integration of warfighting technologies for air, space, and cyberspace forces.
AFRL’s mission is supported by both the Air Vehicles and Sensors directorates. The
Air Vehicles directorate develops and transitions technology solutions to enable dominant
military aerospace vehicles. The Sensors directorate leads the discovery, development,
and integration of affordable sensor and countermeasure technologies for warfighters.
AFRL personnel presented their assessments of the Blue Devil Block 2 acquisition in
April 2010 and again in October 2010.


Assistant Secretary of the Air Force for Acquisition
Headquarters Air Force Mission Directive 1-10 states that SAF/AQ “has overall
responsibility for acquisition systems for the Department of the Air Force.” SAF/AQ is
responsible for basic research, applied research, and advanced technology development.
Additionally, SAF/AQ is responsible for “contracting and is delegated the authority to
enter into, approve, terminate, and take all other appropriate actions with respect
to contracts and agreements and authority to issue, modify, or rescind contracting
regulations under the Federal Acquisition Regulation (FAR).”


Director, Information Dominance Programs
The Director for Information Dominance Programs, Office of the Assistant Secretary
of the Air Force for Acquisition (Director, SAF/AQI), is responsible for directing,
planning, and programming for research, development, and acquisition of programs in
the information dominance capability area. SAF/AQI’s area of responsibility includes:
airborne and ground-based command and control and combat support systems,
airborne reconnaissance systems, unmanned aerial systems, information warfare/
cyberspace systems, and future Command, Control, Communications, and Computer ISR
capability programs from concept and technology development through production
deployment and sustainment.


Air Force 645th Aeronautical Systems Group
645th AESG Life-Cycle Management Plan, January 8, 2008, states the 645th AESG is a
SAF/AQ program and contracting resource that acquires, fields, and sustains aircraft,
avionics, and specialized mission equipment that would not be available through
traditional acquisition practices. Projects that are assigned to 645th AESG by SAF/AQ are
typically high-priority efforts, involve a limited number of vehicles, consist of in-service
engineering modifications to existing systems, and require unique logistics support or




                                                                                           DODIG-2013-128 │ 5
Introduction



                 system modifications. The 645th AESG balances urgent needs against available capability
                 through use of an evolutionary acquisition strategy that acquires capability in spirals,
                 with future capabilities and improvements added as technologies mature.

                 645th AESG personnel awarded contract FA8620-11-C-4024 on March 14, 2011, for
                 Blue Devil Block 2. The contract required the contractor to build and integrate a
                 persistent surveillance and reconnaissance capability consisting of an airship with
                 a multi-sensor payload and a ground station for command and control of both airship
                 and sensors.            The contract was an undefinitized contractual action with a not-to-
                 exceed value of $86.2 million. The contract specified a period of performance through
                 January 31, 2012.


                 Army Corps of Engineers Engineer Research and
                 Development Center
                 According to the ERDC website, ERDC conducts research and development in support
                 of the Soldier, military installations, the Corps of Engineers’ civil works mission, other
                 Federal agencies, state and municipal authorities, and U.S. industries through innovative
                 work agreements. ERDC conducts research and development in four major areas:

                               •	 military engineering,

                               •	 geospatial research and engineering,

                               •	 environmental quality and installations, and

                               •	 civil works and water resources.

                 ERDC personnel used broad agency announcement W912HZ-10-BAA-01 to solicit
                 proposals for basic and applied research4 for seven of the Corps laboratories and
                 engineering centers.                 The broad agency announcement identified 136 research
                 topics; one of the laboratories, the Geotechnical and Structures Laboratory, identified
                 23 research topics. ERDC received a proposal for WASP from ARES Systems Group
                 on May 7, 2010, in response to ERDC’s broad agency announcement. Specifically,
                 ARES submitted the WASP proposal in response to research topic number GSL-10,
                 “Geophysical Phenomenology–Multi-Modal Geophysical Phenomenology, Modeling,



                 	4	
                       Basic research is defined as research directed toward increasing knowledge in science with the primary aim being a fuller
                       knowledge or understanding of the subject under study, rather than any practical application of that knowledge.

                       Applied research is the effort that normally follows basic research, but may not be severable from the related basic
                       research; attempts to determine and exploit the potential of scientific discoveries or improvements in technology,
                       materials, processes, methods, devices, or techniques; and attempts to advance the state of the art.




6 │ DODIG-2013-128
                                                                                         Introduction



Data Processing, and Data Management.” See Appendix C for the complete text of the
research topic.

ERDC personnel awarded contract W912HZ-10-C-0085 on August 11, 2010, to MAV6
(previously ARES Systems Group). The contract was a $49.6 million cost-plus, fixed-fee
research and development contract, funded by a combination of Air Force and JIEDDO
funds. The contract called for the expansion of existing and potential technologies
to new environments achieved through the implementation and in accordance with
the contractor’s proposal titled, “Wide Area Surveillance Platform (WASP) Capability.”
Figure 3 portrays the series of significant events during the development of
Blue Devil Block 2.




                                                                                     DODIG-2013-128 │ 7
    Introduction



    Figure 3. Series of Significant Events for Blue Devil Block 2

                     ERDC Receives from ARES
                      the Materially Identical
                 Proposal Submitted to Air Force A2
                       as a Response to the
                        ERDC Broad Agency         SAF/AQI Tasks
                           Announcement         Blue Devil 2 Effort
                                                  to 645th AESG
                                   May-10                                            645th AESG Delivers
     Air Force A2                                           Nov-10                   Forbearance Letter
  Briefs Blue Devil 2                                                                      to MAV6
to the Joint Integrated
     Product Team                                                Secretary of Defense
                                       ERDC Awards Wide             Re-designates            Jul-11
                                        Area Surveillance          Rapid Acquisition                                                        Blue Devil 2 Period
        Nov-09       ARES Submits           Platform             Authority to Air Force                                                     of Performance End
                      Unsolicited         (Blue Devil 2)
                      Proposal to           Contract                      Jan-11                                                                  Nov-12
                      Air Force A2     W912HZ-10-C-0085

                          Mar-10                Aug-10



    2009                                2010                                                 2011                                    2012

        Nov-09                                     Sep-10

    Air Force A2                             Secretary of Defense
      Identifies                            Assigns the Army Rapid
    Blue Devil 2’s           Apr-10          Acquisition Authority         Mar-11                                  Jan-12
      Objectives                                for Blue Devil 2
                        AFRL Identifies                               645th AESG Awards                    645th AESG De-scopes
                  Blue Devil 2’s Completion                          Blue Devil 2 Contract                 the Blue Devil 2 Effort
                 Timeline as “Aggressive and                          FA8620-11-C-4024
                     Likely Unachievable”



    8 │ DODIG-2013-128
                                                                                                Introduction



Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the Air Force A2 and ERDC personnel’s management of the award of
contracts for the Blue Devil Block 2 surveillance system.         Air Force A2 personnel
inappropriately acted in a program management capacity and disregarded AFRL
personnel’s assessments that did not support the development schedule to obtain
approval and funding for Blue Devil Block 2. ERDC contracting and technical personnel
did not identify the WASP proposal as a specific system (Blue Devil Block 2) previously
proposed to Air Force A2 that would have prevented ERDC personnel from awarding the
contract using the broad agency announcement process. We will provide a copy of the
final report to the senior officials in charge of internal controls in the Air Force and Army
Corps of Engineers.




                                                                                            DODIG-2013-128 │ 9
Finding A




                 Finding A
                 Developing and Fielding Blue Devil Block 2 Under
                 Accelerated Time Frames Were Not Effective
                 Air Force personnel did not properly manage the contract awards for the urgently needed
                 Blue Devil Block 2 initiative. Specifically:

                                •	 Air Force A2 personnel improperly offloaded5 the award of the first
                                    Blue Devil Block 2 contract in August 2010 to ERDC instead of using
                                    Air Force program and contracting personnel.                               This occurred because
                                    Air Force A2 personnel inappropriately acted in a program management
                                    capacity by disregarding AFRL personnel’s assessments that did not support
                                    the 24-month development schedule used to obtain approval and funding for
                                    Blue Devil Block 2 during the JCAAMP.

                                •	 645th       AESG       contracting         personnel         awarded         the     second        contract
                                    FA8620-11-C-4024 in March 2011 to develop and field Blue Devil Block 2
                                    in an unachievable time frame. This occurred because the Director, SAF/
                                    AQI, inappropriately directed 645th AESG personnel in November 2010 to
                                    expedite fielding of Blue Devil Block 2, despite AFRL and 645th AESG
                                    personnel’s initial assessments that the 12-month delivery time frame was
                                    unachievable and Blue Devil Block 2 was not suited for rapid fielding.

                 As a result, the warfighter did not receive an urgently needed capability, and about
                 $149 million was wasted on a system the contractor did not complete.
                 5



                 Assumption of Program Management Responsibility
                 after Disregard of Technical Assessment
                 Air Force A2 personnel inappropriately assumed program management responsibility
                 after they disregarded AFRL technical assessments that Blue Devil Block 2 could
                 not be developed and fielded within the required time frame. Instead, Air Force A2


                 	 5	
                        The Government Accountability Office defines contract offloading as, “when one agency buys goods or services under
                        a contract entered and administered by another agency.” We use the term contract offloading to include instances of
                        intra-DoD contract offloading; where DoD entities use contracting offices outside of normal agency channels to obtain
                        contracting support not related to Economy Act orders.




10 │ DODIG-2013-128
                                                                                                                                       Finding A



personnel decided to use contracting support from ERDC for Blue Devil Block 2
despite ERDC personnel’s lack of experience in airship development. Air Force A2
personnel’s assumption of program management responsibility was inappropriate
because Air Force A2 is a headquarters policy office responsible for program planning
and advocacy without an assigned contracting office or authority to initiate and
manage programs.6 Program management, including development and production to
satisfy an urgent requirement, was beyond the scope of Air Force A2 responsibilities.
Air Force A2 personnel initially sought program and contracting support from AFRL
in April 2010, because AFRL personnel worked with Air Force A2 to successfully field
Blue Devil Block 1. A2 personnel planned to use the same quick reaction capability
contracting methods that they used successfully with Blue Devil Block 1. AFRL personnel
completed technical assessments of Blue Devil Block 2 in April 2010 and were aligned
to support development with dedicated air vehicle and sensor directorates. However,
AFRL personnel determined the 24-month time frame (12 months for airship
development with a 12-month operational demonstration) established during the
JCAAMP to be “aggressive and likely unachievable.” AFRL personnel proposed a 34-month
development schedule (24-month airship development with a 10-month operational
demonstration) based on a competitive development time frame.                                                  Following the
assessment, Air Force A2 personnel were unable to find a willing Air Force program and
contracting office and decided to use ERDC contracting support and the ERDC broad
agency announcement to meet the required time frame. Air Force A2 did not have a
defined Air Force program and contracting source responsible for rapid developing and
fielding of ISR innovations. The Chief of Staff of the Air Force should assess whether
the need exists to designate a program and contracting office responsible for rapid
development and fielding of ISR initiatives.

On May 7, 2010, in response to the ERDC broad agency announcement, ERDC contracting
personnel received a proposal for the “Wide Area Surveillance Platform,” which
was essentially the same proposal as Air Force A2 received for Blue Devil Block 2.
The proposal called for development of an airship and demonstration of a persistent
surveillance capability within 12 months. On August 11, 2010, ERDC personnel awarded
a $49.6 million research and development contract for WASP. Details about ERDC actions
are discussed in Finding B.

	 6	
       Headquarters Air Force Mission Directive 1-33, “Deputy Chief of Staff of the Air Force, Intelligence, Surveillance and
       Reconnaissance,” September 4, 2009.




                                                                                                                                DODIG-2013-128 │ 11
Finding A



                 Lost Technical Expertise and Increased Costs
                 Air Force A2’s decision to offload the Blue Devil Block 2
                 contract to ERDC increased costs and deprived the                                 Air
                 acquisition of the benefit of AFRL personnel’s                                Force A2’s
                 subject matter expertise. Before Blue Devil Block 2,                      decision to offload
                                                                                         the Blue Devil Block 2
                 AFRL personnel successfully participated in the
                                                                                       contract to ERDC increased
                 development and fielding of Blue Devil Block 1.                         costs and deprived the
                 AFRL also had aeronautical engineering experience                      acquisition of the benefit
                 as well as experience with sensor technology.                            of AFRL personnel’s
                                                                                             subject matter
                 ERDC personnel did not have the expertise to assess                            expertise.
                 the cost nor oversee the development of an estimated
                 $243 million7 airship initiative.                     ERDC personnel had
                 experience and expertise in developing sensors but neither in developing airships.
                 Air Force A2 personnel incurred additional fees by having ERDC personnel award and
                 administer the contract for Blue Devil Block 2. ERDC is a reimbursable organization
                 that charges sponsoring organizations, like Air Force A2, an administrative fee and
                 cost reimbursement to award and administer contracts.                      In exchange for the fee,
                 Air Force A2 was not constrained by the event-driven development schedule and
                 opportunities for competition proposed by AFRL for Blue Devil Block 2. ERDC personnel
                 provided little oversight and charged the Air Force $1,137,000 to administer the
                 Blue Devil Block 2 contract for 3 months. ERDC personnel received about $34 million of
                 the $49.6 million in funding before Blue Devil Block 2 was transferred to the 645th AESG
                 in November 2010. ERDC personnel:

                               •	 obligated $31,050,000 to contract W912HZ-10-C-0085,

                               •	 obligated $1,800,000 to contracts supporting development, and

                               •	 retained $1,137,000 in fee and cost reimbursement to administer WASP.


                 Acquisition Responsibility Transitioned Back to
                 the Air Force
                 Blue Devil Block 2 did not remain with ERDC very long after the August 11, 2010,
                 contract award.               On September 30, 2010, the Secretary of Defense approved
                 Blue Devil Block 2 for rapid acquisition authority. He designated the Secretary of the
                 Army as the senior official in the Department of Defense responsible for acquiring and


                 	 7	
                        The estimate included a 12-month operational demonstration.




12 │ DODIG-2013-128
                                                                                               Finding A



deploying Blue Devil Block 2 as quickly as possible. In October 2010, Air Force A2
personnel requested the Director, SAF/AQI, assist in transitioning Blue Devil Block 2 to
an Air Force program office.      On November 9, 2010, SAF/AQI verbally assigned
responsibility for Blue Devil Block 2 to the 645th AESG. On December 22, 2010, the
Director, SAF/AQI, directed the 645th AESG to take the necessary steps to execute
Blue Devil Block 2. On January 26, 2011, the Secretary of Defense signed a memorandum
officially designating the Secretary of the Air Force as the senior official for
Blue Devil Block 2.


Expedited Fielding of a Developmental System in an
Unachievable Time Frame
The Director, SAF/AQI, inappropriately directed 645th AESG personnel to expedite the
fielding of Blue Devil Block 2 after he disregarded technical assessments from AFRL
and initial assessments from 645th AESG personnel that the 12-month delivery time
frame was unachievable and that Blue Devil Block 2 was not suited for rapid fielding.
AFRL personnel performed a second assessment of the Blue Devil Block 2 acquisition in
October 2010 and proposed a 30-month development schedule at a total cost between
$231 and $296 million (including 12-month deployment). AFRL personnel expressed
concern that Blue Devil Block 2 had poorly defined system and performance requirements.
Specifically, AFRL personnel expressed concern about the airship because it was 7.5 times
larger in volume, 75 percent longer, and the operating altitude was 4 times greater than
the contractor had experienced with its smaller Polar 400 airship.

645th AESG personnel also identified several items that could negatively impact the
desired 12-month requirement. 645th AESG personnel estimated Blue Devil Block 2
could be developed and deployed in 16 months. However, 645th AESG personnel’s
16-month estimate reflected long lead times for critical components and considered
using a different contractor to assume the role of lead integrator. Additionally, the
645th AESG’s assessment included a legal review of ERDC contract W912HZ-10-C-0085,
which determined the contract was “legally insufficient” and unusable because the initial
requirement was not synopsized or competed, although there were indications that
commercial sources may have been available and the data rights were not negotiated
thoroughly. 645th AESG personnel notified the Director, SAF/AQI, that Blue Devil Block 2
was not suitable for rapid fielding because the system was developmental.

After consulting with JIEDDO, 645th AESG personnel, and personnel from the
ISR Task Force, on November 9, 2010, the Director, SAF/AQI, directed 645th AESG to
field Blue Devil Block 2. Following the November direction from SAF/AQI, 645th AESG



                                                                                        DODIG-2013-128 │ 13
Finding A



                 personnel worked to develop a plan that would meet the 12-month deadline.
                 On November 18, 2012, 645th AESG personnel sent an e-mail to SAF/AQI stating that
                 12 months was going to be a challenge but it was doable. The 645th AESG personnel
                 also identified areas of concern that needed to be worked through, such as spares and
                 the ground station. 645th AESG contracting personnel awarded the second contract,
                 FA8620-11-C-4024, on March 14, 2011, with a delivery date of January 31, 2012.
                 The Deputy Assistant Secretary for Information Dominance, Office of the Assistant
                 Secretary of the Air Force for Acquisition should heed future technical assessments
                 from acquisition experts regarding unachievable delivery time frames and modify
                 delivery schedules accordingly.


                 Inappropriate Assignment to the 645th AESG
                 The Director, SAF/AQI, directed 645th AESG personnel to manage the Blue Devil Block 2
                 acquisition. However, the assignment was inappropriate for the 645th AESG because
                 Blue Devil Block 2 required developmental work and had a 12-month delivery time frame.
                 Further, ERDC personnel initiated the acquisition by awarding a contract that was high-
                 risk with probable cost growth. A major portion of the Blue Devil Block 2 acquisition
                 was the development, assembly, and fabrication of an unmanned 335-foot airship.
                 645th AESG personnel do not typically acquire systems as developmental as
                 Blue Devil Block 2; instead, their acquisitions normally include modification of existing
                 equipment to rapidly acquire needed capabilities.

                 645th AESG personnel generally manage cradle-to-grave initiatives with control over
                 both acquisition and contracting. 645th AESG effectiveness in rapid acquisition and
                 fielding resulted from its use of a trusted supplier network. During the development of
                 Blue Devil Block 2, 645th AESG personnel were unable to use this trusted supplier
                 network to field Blue Devil Block 2 because the 12-month delivery time frame
                 necessitated use of MAV6, the contractor selected by ERDC personnel on contract
                 W912HZ-10-C-0085.       645th AESG personnel informed the Director, SAF/AQI in
                 October 2010, they could not deliver Blue Devil Block 2 in 12 months. The 645th AESG
                 Deputy Program Director stated that SAF/AQI replied, “If not the 645th AESG, then
                 who?”   The Deputy Assistant Secretary for Information Dominance, Office of the
                 Assistant Secretary of the Air Force for Acquisition should limit future use of the
                 645th AESG to programs suitable for quick-reaction contracting.

                 ERDC personnel wrote an inadequate and ambiguous contract for WASP. 645th AESG
                 personnel assessed contract W912HZ-10-C-0085 and concluded that ERDC personnel
                 initiated Blue Devil Block 2 without consulting acquisition experts, which resulted




14 │ DODIG-2013-128
                                                                                              Finding A



in high-risk of cost growth and delayed system completion. 645th AESG personnel
had to correct the contract deficiencies and development approach initiated by ERDC.
645th AESG personnel did not transfer the ERDC contract; instead, personnel initiated
a new contract, FA8620-11-C-4024, and provided the completed work from the
ERDC contract W912HZ-10-C-0085 to the contractor as Government-furnished
equipment. 645th AESG personnel developed an acquisition strategy, drafted a statement
of work, and transitioned the contractor to a new Air Force contract with contractor
accountability mechanisms.


Proper Administration of Second Contract
Following the March 14, 2011, contract award, 645th AESG personnel provided adequate
contractor oversight and contract administration. FAR 42.1103, “Production Surveillance
and Reporting Policy” requires the contractor be responsible for timely contract
performance and the Government to maintain surveillance of contractor performance
as necessary to protect its interests. 645th AESG personnel properly oversaw contractor
performance and actively monitored the contractor’s development of Blue Devil Block 2
throughout the period of performance. 645th AESG personnel provided a forbearance
letter to address cost growth and development delays, regularly updated Air Force
stakeholders, and issued a cure notice to address schedule delays and the contractor’s
inability to complete the project. Specifically,

         •	 645th AESG personnel issued a forbearance letter to MAV6 on July 25, 2011,
            after Blue Devil Block 2 suffered technical setbacks projected to cause
            cost growth and schedule delays. 645th AESG personnel also addressed
            programmatic and technical challenges with the forbearance letter to
            mitigate risk of program failure. MAV6 was granted 30 days to provide a
            detailed plan to address estimated costs at completion, a revised completion
            date,   subcontractor     management    plan,   configuration   management
            plan, and quality assurance approach across the life of the program.
            On October 12, 2011, 645th AESG personnel determined that the contractor’s
            recovery plan was satisfactory to continue work on Blue Devil Block 2.

         •	 645th AESG personnel regularly provided updates about Blue Devil Block 2
            development to the ISR Task Force and the Director, SAF/AQI. Additionally,
            645th AESG assigned Government flight representatives to be onsite with the
            contractor to monitor contractor performance.




                                                                                       DODIG-2013-128 │ 15
Finding A



                          •	 645th AESG personnel issued a cure notice to MAV6 on March 20, 2012, to
                            address continued schedule delays, poor subcontractor management,
                            persistent weight and engineering challenges, and test failures that raised
                            concerns about the contractor’s ability to complete the project within the
                            contractual schedule.

                 645th AESG personnel assessed deployment costs for Blue Devil Block 2 in
                 November 2011, after concluding that initial Air Force A2 and ERDC estimates were not
                 accurate. 645th AESG personnel received an estimate that the sustainment costs would
                 be over $150 million per year and informed the Chief of Staff of the Air Force and the
                 ISR Task Force in December 2011 that Blue Devil Block 2 was underfunded by
                 $194 million. Further, SAF/AQI personnel stated in an August 2012 meeting that
                 initial cost estimates of logistics support to deploy Blue Devil Block 2 to Afghanistan
                 were low and that true costs were dramatically higher because of inherently high risk
                 when deployed.


                 Airship Development Stops
                 On May 23, 2012, after the contractor was unable to successfully attach tail fins to
                 Blue Devil Block 2, 645th AESG personnel directed the contractor to stop work on
                 airship development and directed the contractor to pack and ship the airship.
                 Air Force officials determined that the contractor would not be able to deliver an
                 airworthy airship within the required time frame, which had been extended from
                 October 2011 to June 30, 2012. Furthermore,

                          •	 Blue Devil Block 2 costs had increased $26 million, and

                          •	 the delivery date had been extended 5 months since 645th AESG personnel
                            awarded the contract in March 2011.

                 On July 21, 2012, the contractor released nearly $400,000 of helium out of the
                 Blue Devil Block 2 airship, effectively ending development.       645th AESG personnel
                 allowed the contractor to complete closeout activities on contract FA8620-11-C-4024,
                 which ended October 21, 2012.        The period of performance for ERDC contract
                 W912HZ-10-C-0085 ended November 27, 2012. In total, DoD spent about $149 million
                 on Blue Devil Block 2 ($115 million on FA8620-11-C-4024 and $34 million on
                 W912HZ-10-C-0085). SAF/AQI personnel noted that many component parts originally
                 procured for the airship had residual value and were absorbed into other programs
                 across the Air Force.




16 │ DODIG-2013-128
                                                                                                Finding A



Conclusion
Air Force personnel mismanaged the award of contracts for Blue Devil Block 2.
Air Force A2 personnel initiated Blue Devil Block 2 in response to urgent operational
needs and intended to use the same methodology that had been successful in fielding
Blue Devil Block 1.     However, Air Force A2 personnel improperly offloaded the
Blue Devil Block 2 contract to ERDC after they could not find a program or contracting
office willing to support the delivery date used to secure approval and funding.
Air Force A2 personnel’s use of contract offloading unnecessarily increased program
costs by about $1.1 million for ERDC administrative fees and initiated Blue Devil Block 2
without necessary Air Force technical and contracting expertise.

The Director, SAF/AQI, inappropriately directed 645th AESG personnel to acquire
Blue Devil Block 2 despite technical assessments from AFRL and initial assessments
from 645th AESG personnel that the 12-month delivery time frame was unachievable and
that Blue Devil Block 2 was not suited for rapid fielding. Although the Director, SAF/AQI,
was responding to urgent operational requirements, as well as direction from the
Secretary of Defense, the Air Force would have been better served to have AFRL personnel
manage the acquisition using an event-driven acquisition schedule with a realistic
development time frame. If Air Force A2 personnel and the Director, SAF/AQI, had
heeded the advice of acquisition experts, the Air Force would not have wasted
$149 million on the uncompleted Blue Devil Block 2 system.


Recommendations, Management Comments, and
Our Response
Recommendation A.1
We recommend the Chief of Staff of the Air Force assess initiatives started by
Air Force Intelligence, Surveillance, and Reconnaissance personnel to determine
whether an Air Force program and contracting organization should be designated
for quick reaction capability development and fielding of Intelligence, Surveillance,
and Reconnaissance initiatives.


Principal Deputy Assistant Secretary of the Air Force for Financial
Management and Comptroller Comments
The Principal Deputy Assistant Secretary of the Air Force for Financial Management
and Comptroller, responding on behalf of the Chief of Staff of the Air Force, commented
intelligence, surveillance, and reconnaissance initiatives are coordinated with the




                                                                                         DODIG-2013-128 │ 17
Finding A



                 Assistant Secretary of the Air Force, Director of Information Dominance Programs
                 and other organizations and agencies to advocate, develop and field new technologies
                 in support of urgent warfighter operational needs.       The lessons learned from the
                 Blue Devil Block 2 failure will be applied toward improving coordination of future
                 quick reaction capability programs with the proper acquisition office.


                 Our Response
                 The Principal Deputy Assistant Secretary of the Air Force for Financial Management
                 and Comptroller comments are not responsive.         We request the Principal Deputy
                 Assistant Secretary of the Air Force for Financial Management and Comptroller state in
                 an updated response whether or not she agrees with the recommendation and provide
                 a specific course of action and completion time frame.


                 Recommendation A.2
                 We recommend the Director for Information Dominance Programs, Office of the
                 Assistant Secretary of the Air Force for Acquisition:

                         a.	 Heed future technical assessments from acquisition experts regarding
                            unachievable deliver time frames and modify delivery schedules
                            accordingly.

                 Principal Deputy Assistant Secretary of the Air Force for Financial
                 Management and Comptroller Comments
                 The Principal Deputy Assistant Secretary of the Air Force for Financial Management and
                 Comptroller, responding on behalf of the Director for Information Dominance Programs,
                 Office of the Assistant Secretary of the Air Force for Acquisition, commented future
                 initiatives will be assigned and managed by the appropriate Air Force program office
                 which will ensure the correct technical, cost, and schedule assessments are completed.


                 Our Response
                 The Principal Deputy Assistant Secretary of the Air Force for Financial Management and
                 Comptroller comments are considered responsive as the Air Force will ensure future
                 initiatives will be assigned and managed by the appropriate Air Force program office.
                 No further action is required.




18 │ DODIG-2013-128
                                                                                            Finding A



        b.	Use the capabilities of the 645th Aeronautical Systems Group only for
           systems appropriate for quick-reaction contracting.

Principal Deputy Assistant Secretary of the Air Force for Financial
Management and Comptroller Comments
The Principal Deputy Assistant Secretary of the Air Force for Financial Management and
Comptroller agreed with the recommendation and commented the 645th Aeronautical
Systems Group should only be used for initiatives appropriate for quick reaction
contracting.


Our Response
The Principal Deputy Assistant Secretary of the Air Force for Financial Management
and Comptroller comments are responsive and no further action is required.




                                                                                     DODIG-2013-128 │ 19
Finding B




                 Finding B
                 Army Engineer Research and Development Center Was
                 Not the Appropriate Place for Developing a Persistent
                 Surveillance Airship
                 ERDC personnel improperly awarded contract W912HZ-10-C-0085 on August 11, 2010,
                 for the $49.6 million WASP.    Specifically, ERDC personnel inappropriately awarded
                 a level of effort research and development contract for a known Air Force and
                 JIEDDO requirement.

                 This occurred because ERDC personnel misused the broad agency announcement
                 process. Specifically, ERDC personnel:

                         •	 did not identify the WASP proposal as a specific system (Blue Devil Block 2)
                            previously proposed to Air Force A2, which would have prevented ERDC
                            personnel from awarding the contract using the broad agency announcement
                            process, and

                         •	 completed inadequate assessments of project technical feasibility and cost
                            before awarding the contract.

                 Additionally, ERDC personnel did not properly administer the WASP contract because
                 ERDC personnel devoted insufficient resources to administer the contract.

                 As a result, ERDC personnel initiated development of an Air Force system without
                 adequately assessing technical feasibility and cost, which contributed to the failure
                 to fulfill an urgent operational need. Furthermore, ERDC personnel charged about
                 $1.1 million in administration fees that was not commensurate with the amount of
                 work performed.



                 Improper Use of the Broad Agency Announcement to
                 Acquire a Specific System
                 ERDC personnel should not have used its broad agency announcement in August 2010
                 to award the $49.6 million WASP contract. The WASP was not basic or applied research
                 and development but instead was essentially the development of the Blue Devil Block 2
                 system previously proposed to Air Force A2. FAR 35.016, “Broad Agency Announcement,”




20 │ DODIG-2013-128
                                                                                                Finding B



limits use of the broad agency announcement to basic and applied research as well as
advancement of the state-of-the-art:

           BAA’s [broad agency announcements] may be used by agencies to fulfill
           their requirements for scientific study and experimentation directed
           toward advancing the state-of-the-art or increasing knowledge or
           understanding rather than focusing on a specific system or hardware
           solution. The broad agency announcement technique shall only be used
           when meaningful proposals with varying technical/scientific approaches
           can be reasonably anticipated. [emphasis added]


ERDC personnel did not treat the WASP proposal as a specific Air Force system despite
numerous references throughout the contractor’s proposal to supporting the Air Force
Blue Devil Block 2 initiatives. On May 7, 2010, ERDC personnel received a 200-page
proposal titled, “Wide Area Surveillance Platform,” which included detailed descriptions
of an airship attached with ISR equipment deployable to Afghanistan within 12 months.
The proposal also stated that the contractor had submitted the proposal to Air Force A2,
although WASP was not an Air Force program of record. ERDC personnel focused on
the ISR equipment and potential improvements in sensor capabilities but not the effort
required to develop and field an airship. ERDC personnel treated the WASP proposal
as research and development to advance the state of the art and not the acquisition of a
system that included development of a large airship with attached ISR equipment
intended to meet urgent Air Force and JIEDDO requirements. The Army Corps of Engineers
Principal Assistant Responsible for Contracting–Winchester should provide training to
assist ERDC personnel in the identification of specific material solutions and initiatives
inappropriate for the Army Engineer Research and Development Center, plus compliant
use of the broad agency announcement.


Avoiding Competition Requirements
ERDC contracting personnel’s decision to treat the WASP as research and development
and not as a specific Air Force system improperly avoided Federal contracting
requirements for open competition. ERDC personnel received a single response to
their broad agency announcement on open research topic 10 on May 7, 2010, from
ARES Systems Group (later MAV6), titled, “Wide Area Surveillance Platform.”
ARES Systems Group previously submitted essentially the same proposal to
Air Force A2 on March 3, 2010, as a system suitable for accelerated fielding to support
Blue Devil Block 2, as well as multiple Air Force and Joint Urgent Operational Needs.
FAR 6.102, “Use of Competitive Procedures,” states:




                                                                                         DODIG-2013-128 │ 21
Finding B



                            Competitive selection of basic and applied research and that part of
                            development not related to the development of a specific system or
                            hardware procurement is a competitive procedure if award results
                            from—

                            (i) A broad agency announcement that is general in nature identifying
                            areas of research interest, including criteria for selecting proposals,
                            and soliciting the participation of all offerors capable of satisfying the
                            Government’s needs; and

                            (ii) A peer or scientific review.


                 In accepting the WASP proposal, ERDC personnel accepted an existing proposal
                 for a specific Air Force system in response to an open broad agency announcement
                 research topic. Before ERDC personnel received the WASP proposal, AFRL personnel
                 had assessed Blue Devil Block 2 in April 2010 and performed market research that
                 identified opportunities for competition.         Specifically, AFRL personnel considered
                 splitting the procurement by awarding a sole-source contract for the sensors and
                 competing the contract for the airship.

                 Because WASP was essentially the Air Force Blue Devil Block 2 system, ERDC personnel
                 should have competed the acquisition or prepared a justification for a sole-source
                 award. ERDC personnel awarded what was, in effect, a sole-source contract to MAV6 on
                 August 11, 2010. Further, potentially interested sources would have no means to
                 determine that ERDC’s broad agency announcement research topic GSL-10 would
                 be used to award a contract for development and fielding of a complex sensor
                 system that included fabrication of a 335-foot airship. The Army Corps of Engineers
                 Principal Assistant Responsible for Contracting—Winchester should conduct training
                 to ensure ERDC personnel understand and comply with competition mandates.


                 Contract Technical Feasibility and Cost Assessments
                 Were Inadequate
                 ERDC personnel completed an insufficient review of the $49.6 million WASP proposal
                 and supported their technical feasibility assessment with a 1-page document.
                 ERDC personnel primarily relied on the contractor’s proposal and the ERDC assertions
                 from the principal investigator (who later became the contracting officer’s representative
                 for the WASP contract) that the WASP was a research and development effort.
                 ERDC personnel supported their technical feasibility determination with brief
                 responses describing the merits of the WASP proposal and compliance with the




22 │ DODIG-2013-128
                                                                                                Finding B



                              limitations of the broad agency announcement.         ERDC
             ERDC
                                 technical personnel had extensive experience in
           personnel
         reviewing the            sensor technology research and development and
     contractor’s proposal         had worked with JIEDDO to satisfy other urgent
      had no experience             requirements. However, ERDC personnel reviewing
       in overseeing the
       development and              the contractor’s proposal had no experience in
        fabrication of a           overseeing the development and fabrication of a
       335-foot airship.          335-foot airship that was supposed to be deployable
                                in 12 months.    The Head of the Contracting Activity
                             for the Army Engineer Research and Development Center
should establish procedures to verify personnel reviewing proposed efforts have an
appropriate level of subject matter expertise.

ERDC personnel conducting the assessment of technical feasibility placed too much
reliance on the assertions of the ERDC principal investigator. The ERDC principal
investigator was aware of Blue Devil Block 2 and, in April 2010, provided ground-sensor
expertise to Air Force A2 personnel, while Blue Devil Block 2 processed through the
JCAAMP. The ERDC principal investigator stated the WASP proposal represented what
the contractor would like to accomplish during the 12-month period. As discussed
in Finding A, Air Force A2 personnel offloaded the Blue Devil Block 2 contract to
ERDC after AFRL personnel determined that the 24-month time frame established
during the JCAAMP was unachievable.          The ERDC principal investigator offered
Air Force A2 personnel use of the broad agency announcement research topic GSL-10,
which he oversaw.

ERDC personnel conducted an inadequate cost assessment of the WASP.                 ERDC
personnel treated the WASP proposal as a 12-month research and development effort,
despite numerous indications in the contractor’s proposal that the WASP system was
substantially larger than the $49.6 million proposed. If the proposal value submitted
to ERDC had exceeded $50 million, the Principal Assistant Responsible for Contracting–
Winchester would have been required to perform a peer review before issuing the
contract and may have questioned the size and scope of the WASP proposal. ERDC
personnel did not consider the total development cost, which AFRL personnel estimated
in April 2010 to be greater than $240 million. ERDC personnel’s assessment of cost
involved little more than verifying the accuracy of amounts in the contractor’s
proposal. The Head of the Contracting Activity for the Army Engineer Research and
Development Center should perform a review of the performance of the contracting
officer and chief of contracting, who awarded contract W912HZ-10-C-0085, for failure
to protect the Government’s interest. As appropriate, initiate accountability actions.



                                                                                         DODIG-2013-128 │ 23
Finding B



                 Contract Administration Needed Improvement
                 ERDC personnel did not assign sufficient resources or complete meaningful oversight
                 plans to administer the $49.6 million contract, of which ERDC personnel obligated
                 about $31 million. ERDC personnel were unable to provide meaningful support for
                 how they planned to administer and oversee the WASP system, which included the
                 development, fabrication, and deployment of a 335-foot airship in 12 months. ERDC
                 contracting personnel assigned a single contracting officer’s representative without
                 sufficient airship development experience to provide oversight and stated they
                 were not involved unless the ERDC contracting officer’s representative informed
                 them of problems. ERDC personnel stated they participated in numerous in-process
                 reviews, program reviews, and site visits to the contractor’s facilities. However, the
                 ERDC contracting officer’s representative was unable to provide documentation of
                 oversight planned or conducted.                     Additionally, for the 3-month period8 that ERDC
                 personnel administered the WASP contract, the contracting
                 officer’s representative was deployed to Afghanistan for
                 1 month on other projects. The Director, SAF/AQI,                                          For little
                 assigned Blue Devil Block 2 to the 645th AESG on                                         more than a
                 November 9, 2010, after the Secretary of the                                           3-month period
                                                                                                     that ERDC personnel
                 Air Force requested that Blue Devil Block 2
                                                                                                   administered the WASP
                 transition to an Air Force program office in                                     contract, the contracting
                 October 2010. The 645th AESG contracting                                        officer’s representative was
                 personnel awarded a new contract to finish                                        deployed to Afghanistan
                                                                                                     for 1 month on other
                 procuring Blue Devil Block 2 in March 2011 and                                             projects.
                 provided all items under the ERDC contract award
                 as Government-furnished equipment on the new award.

                 ERDC personnel assessed the Air Force administrative charges that were not
                 commensurate with the actual effort undertaken by ERDC personnel to administer
                 the WASP contract. ERDC received $1,137,000 in administrative and service fees for
                 administering the WASP contract.                      ERDC personnel administered WASP for about
                 3 months before the initiative was transferred to the Air Force. A single contracting
                 officer’s representative was assigned to the WASP. During ERDC personnel’s 3-month
                 administration of the WASP contract, the contracting officer’s representative
                 was deployed to Afghanistan for 1 month.                           As discussed in Finding A, when the
                 Air Force 645th AESG was assigned responsibility to acquire Blue Devil Block 2 in


                 	8	
                       ERDC awarded contract W912HZ-10-C-0085 on August 11, 2010, and SAF/AQI assigned Blue Devil Block 2 to the 645th AESG
                       on November 9, 2010.




24 │ DODIG-2013-128
                                                                                             Finding B



November 2010, they did not use the ERDC contract but instead initiated a new
contract and provided the work completed on the ERDC contract to the contractor as
Government-furnished equipment. After Blue Devil Block 2 was transferred to the
Air Force, ERDC provided no additional administration beyond paying contractor
invoices. Of the fees received by ERDC for 3 months of support:

        •	 $568,118 were allocated to labor costs and laboratory funding,

        •	 $327,824 were allocated to laboratory and office supplies,

        •	 $185,594 were not accounted for, and

        •	 $55,465 were allocated to travel.

ERDC personnel allocated questionable costs to the WASP contract.           Most of the
$1,137,000 was not appropriately allocated to contract W912HZ-10-C-0085. As of
May 2013, ERDC personnel returned $51,423 to the Air Force but were unable to
support how costs were allocated to the WASP contract, despite the limited effort
expended. Further, ERDC personnel’s inappropriate acceptance of the WASP proposal,
inappropriate use of the broad agency announcement, and poor contract administration
make the retention of these funds by ERDC questionable. The Principal Assistant
Responsible for Contracting–Winchester should return all fees received from the
Air Force to award and administer the WASP contract unless an independent review
substantiates that the costs were valid expenses.


Implementation of Some Corrective Actions
In May 2012, ERDC personnel implemented improvements to processes and controls
related to the broad agency announcement process partially in response to this audit
and to an Army Inspector General Peer Review completed in 2012. Specifically, ERDC
developed standard operating procedures for awarding broad agency announcement
contracts and modified their proposal evaluation form; now they require an independent
Government estimate for all contractual actions above the simplified acquisition
threshold. ERDC also implemented an ERDC Acquisition Strategy Board to review and
provide guidance to the individual acquisition plans and strategies to ensure ERDC uses
the appropriate balance of acquisition methods, contract types, and contract sizes.


Conclusion
ERDC personnel improperly used their broad agency announcement to award what was
in effect a sole-source contract to develop the Blue Devil Block 2 surveillance system.




                                                                                      DODIG-2013-128 │ 25
Finding B



                 ERDC personnel treated the WASP award in the same manner as research and
                 development contracts for significantly less complex studies with lower dollar values.
                 ERDC personnel were focused on the research and development potential for the
                 sensor technology but overlooked the airship portion of the proposal. ERDC personnel
                 concluded that a research and development contract that included the development of
                 an airship that had to be deployed in 12 months was technically feasible despite having
                 no experience in developing airships. ERDC personnel failed to identify total cost because
                 ERDC personnel assessed the WASP proposal as a level-of-effort contract. Further,
                 ERDC personnel provided poor contract oversight and assessed the Air Force
                 administrative charges that were not commensurate with the actual effort undertaken
                 by ERDC personnel. ERDC personnel’s efforts directly contributed to the failure to
                 fulfill an urgent operational need.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation B.1
                 We recommend the Army Corps of Engineers Principal Assistant Responsible for
                 Contracting–Winchester:

                          a.	 Provide training in the identification of specific material solutions
                             and initiatives inappropriate for Army Corps of Engineers Engineer
                             Research and Development Center to field.

                 Principal Assistant Responsible for Contracting–Winchester Comments
                 The Principal Assistant Responsible for Contracting–Winchester, commented training
                 was not under the purview of the Regional Principal Assistant Responsible for
                 Contracting but if additional training was determined appropriate, the Directorate
                 of Contracting Workforce Development Division would conduct the training.             The
                 Principal Assistant Responsible for Contracting–Winchester, further commented
                 the Army Engineer Research and Development Center would develop and conduct
                 internal training on the subject matter.


                 Our Response
                 The Principal Assistant Responsible for Contracting–Winchester’s comments are
                 considered responsive. Although they proposed an alternative course of action, the
                 comments met the underlying intent of the recommendation.




26 │ DODIG-2013-128
                                                                                              Finding B



        b.	Conduct a review of Army Corps of Engineers Engineer Research and
           Development Center broad agency announcement procedures, to
           include contract competition requirements.

Principal Assistant Responsible for Contracting–Winchester Comments
The Principal Assistant Responsible for Contracting–Winchester, agreed and stated an
internal evaluation of the Army Engineer Research and Development Center’s broad
agency announcement procedures was conducted and training developed on proper
procedures and Army Engineer Research and Development Center’s efforts to develop
and conduct internal training on the subject matter will be an ongoing initiative.


Our Response
The Principal Assistant Responsible for Contracting–Winchester’s comments were
responsive, and the actions met the intent of the recommendations.

        c.	Direct the return of fees received from the Air Force to award and
           administer contract W912HZ-10-C-0085, unless an independent review
           substantiates questioned costs were valid expenses.

Principal Assistant Responsible for Contracting–Winchester Comments
The Principal Assistant Responsible for Contracting–Winchester commented the
Army Engineer Research and Development Center will request a Defense Contract
Audit Agency Audit to ensure transparency and tractability.            He further stated
that based on an Army Engineer Research and Development Center review of
contract W912HZ-10-C-0085, about $50,000 had been returned to the Air Force.


Our Response
The Principal Assistant Responsible for Contracting–Winchester’s comments are
responsive. We accept the course of action proposed, and the comments meet the
intent of the recommendation.


Recommendation B.2
We recommend the Head of the Contracting Activity for the Army Corps of
Engineers Engineer Research and Development Center:

        a.	Establish procedures to verify personnel reviewing contractor
           proposed efforts have an appropriate level of subject-matter expertise.




                                                                                       DODIG-2013-128 │ 27
Finding B



                 Director, Army Corps of Engineers, Engineer Research and Development
                 Center Comments
                 The Director, Army Corps of Engineers, Engineer Research and Development Center,
                 agreed with the recommendation and commented all contracting actions over
                 $1 million are now presented in front of the Army Engineer Research and Development
                 Center Acquisition Strategy Board.      In addition, the Army Engineer Research and
                 Development Center developed guidance for the broad agency announcement in
                 June 2012 that explains the process and format of the technical review and required
                 level of approval and subject-matter expertise for all acquisitions.


                 Our Response
                 The Director’s comments were responsive, and the actions met the intent of
                 the recommendations.

                          b.	 Perform a review of the contracting officer and chief of contracting
                             who inappropriately awarded contract W912HZ-10-C-0085, which
                             did not protect the Government’s interest. As appropriate, initiate
                             accountability action.

                 Director, Army Corps of Engineers, Engineer Research and Development
                 Center Comments
                 The Director, Army Corps of Engineers, Engineer Research and Development Center,
                 agreed and commented Army Engineer Research and Development Center personnel
                 will review personnel, processes, and procedures associated with the subject contract.
                 Based on the findings, Army Engineer Research and Development Center will implement
                 management controls and accountability actions as appropriate.


                 Our Response
                 The Director’s comments were responsive, and the actions met the intent of
                 the recommendations.




28 │ DODIG-2013-128
                                                                                           Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from May 2012 through July 2013 in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This project was a follow-on audit to “Air Force Aeronautical Systems Center
Contracts Awarded Without Competition” (Project No. D2012-D000CG-0038.000).
Our scope addressed the two primary contracts awarded for the Blue Devil Block 2
surveillance system, consisting of contract W912HZ-10-C-0085, issued at the
Army Corps of Engineers Engineer Research and Development Center for $49.6 million
and contract FA8620-11-C-4024 issued at the 645th Aeronautical Systems Group
(645th AESG) for $86.2 million, to determine whether the Army Corps of Engineers and
Air Force personnel properly awarded and administered contracts for the acquisition of
the Blue Devil Block 2 surveillance system.


Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:

        •	 Federal Acquisition Regulation (FAR) 6.102, “Use of Competitive Procedures”;
        •	 FAR Subpart 6.3, “Other Than Full and Open Competition”;
        •	 FAR Subpart 15.6, “Unsolicited Proposals”;
        •	 FAR 35.016, “Broad Agency Announcement”;
        •	 FAR 42.1103, “Production Surveillance and Reporting Policy”;
        •	 FAR 42.13, “Suspension of Work, Stop-Work Orders, and Government Delay
           of Work”; and
        •	 FAR 52.242-15, “Stop-Work Order.”
        •	 Public Law 107-314, “Bob Stump National Defense Authorization Act for
           Fiscal Year 2003” Section 806; and
        •	 Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act
           for Fiscal Year 2005” Section 811.




                                                                                      DODIG-2013-128 │ 29
Appendixes



                 We interviewed key personnel and performed fieldwork at the following organizations:

                         •	 Army Corps of Engineers Engineer Research and Development Center
                             (Vicksburg, Mississippi),
                         •	 Assistant Secretary of the Air Force for Acquisition (Arlington, Virginia),
                         •	 Air Force Intelligence, Surveillance, and Reconnaissance (Arlington, Virginia),
                         •	 Air Force Aeronautical Systems Center, 645th AESG Contracting Command
                             (Wright Patterson Air Force Base, Fairborn, Ohio), and
                         •	 Air Force Research Laboratory (Wright Patterson Air Force Base,
                             Fairborn, Ohio).

                 We collected, reviewed, and analyzed documents from October 2008 through
                 May 2013.     The documentation related to the award and administration of the
                 Blue Devil Block 2 program.         Documents reviewed related to determining the
                 proper award and administration of the Blue Devil Block 2 program and included
                 presentations submitted to obtain approval during the Joint Improvised Explosive
                 Device Defeat Organization Capability Approval and Acquisition Management Process,
                 technical feasibility assessments, contractor proposals, contract documentation,
                 evaluation forms Army Corps of Engineers, Engineer Research and Development
                 Center personnel used to assess the Wide Area Surveillance Platform, price negotiation
                 memorandums, requests to issue undefinitized contract actions, justifications to
                 use other than full and open competition, and briefings provided to stakeholders
                 throughout the time period Blue Devil Block 2 was in active development.


                 Use of Computer-Processed Data
                 We did not rely on computer-processed data.


                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO) has issued three
                 reports related to the Blue Devil Block 2 Program. Unrestricted GAO reports can be
                 accessed over the Internet at http://www.gao.gov.


                 GAO
                 GAO Report No. GAO-13-81, “Future Aerostat and Airship Investment Decisions Drive
                 Oversight and Coordination Needs,” October 2012




30 │ DODIG-2013-128
                                                                                        Appendixes



GAO Report No. GAO-12-385, “Opportunities Exist to Expedite Development and Fielding
of Joint Capabilities,” April 2012

GAO Report No. GAO-12-280, “DOD Needs Strategic Outcome-Related Goals and Visibility
over Its Counter-IED Efforts,” February 2012




                                                                                   DODIG-2013-128 │ 31
Appendixes




                 Appendix B
                 Chronology of Important Events
                 November 2009–Air Force Intelligence, Surveillance, and Reconnaissance (Air Force A2)
                 developed Blue Devil Block 2 idea:           Air Force A2’s concept was an operational
                 demonstration for persistent surveillance by using the sensor configuration from
                 Blue Devil Block 1 attached to an airship.

                 March 2, 2010–ARES Systems Group, LLC submitted an unsolicited proposal to
                 Air Force A2: ARES Systems Group, LLC (ARES) submitted their Wide Area Surveillance
                 Platform (WASP) proposal to Air Force A2. Air Force did not award a contract from the
                 ARES proposal.

                 April 5, 2010–Air Force Research Laboratory (AFRL) presented their first assessment
                 of Blue Devil Block 2: AFRL presented an assessment of Blue Devil Block 2, which
                 consisted of completing market research and identifying opportunities for competition.
                 AFRL’s assessment estimated the total value of the Blue Devil Block 2 to be greater than
                 $240 million.

                 April 2010–Army Corps of Engineers Engineer Research and Development Center
                 (ERDC) Principal Investigator provided expertise to Air Force A2: ERDC’s Principal
                 Investigator, who later became the contracting officer’s representative for ERDC’s WASP
                 contract, traveled to Wright Patterson Air Force Base and met with AFRL and Air Force A2
                 personnel to provide ground sensor expertise.

                 April 7, 2010–AFRL released Request for Information: AFRL released a Request for
                 Information to gauge interest in the flight demonstration of a medium-altitude, long-
                 endurance airship. Specifically, AFRL stated in the Request for Information that it was
                 a “request for information open to U.S. industry on developing and demonstrating a
                 medium-altitude, long-endurance airship. The airship is intended to carry an Intelligence,
                 Surveillance and Reconnaissance (ISR) payload at medium altitudes for long duration. It
                 is expected that an accelerated demonstration project will prove the airship concept is
                 capable of accomplishing this goal.” AFRL received eight responses to the Request for
                 Information, with one of the responses being ARES Systems Group’s WASP capability. The
                 Request for Information closed on April 15, 2010.

                 May 7, 2010–ARES responded to the ERDC broad agency announcement: ARES
                 submitted three parts of their WASP proposal, the Offeror’s Representations and




32 │ DODIG-2013-128
                                                                                               Appendixes



Certifications and Technical Volumes, in response to Geotechnical and Structures
Laboratory topic 10 of ERDC’s broad agency announcement.

May 15, 2010–Blue Devil Block 2 received Joint Improvised Explosive Device Defeat
Organization Capability Approval and Acquisition Management Process (JCAAMP)
approval: The Blue Devil Block 2 received JCAAMP approval, which consisted of approval
at many levels and final approval by the Deputy Secretary of Defense. The JCAAMP
approval authorized the use of Joint Improvised Explosive Device Defeat Organization
(JIEDDO) funding for Blue Devil Block 2.

May 18, 2010–ERDC received initial funding for WASP: ERDC received a $3,987,000
Military Interdepartmental Purchase Request from the National Guard Bureau for
funding of WASP.

June 18, 2010–ARES submitted final piece of WASP proposal: ARES submitted the
Cost/Price Volume, which was the fourth and final part of the WASP proposal to ERDC.

August 11, 2010–ERDC awarded WASP (Blue Devil Block 2) contract: ERDC awarded
MAV6 (formerly ARES) the WASP (Blue Devil Block 2) contract, W912HZ-10-C-0085,
valued at $49.6 million, to perform all work necessary for research and development
efforts to allow for expansion of existing and potential technologies to new environments
achieved through their implementation and in accordance with contractor’s proposal
entitled Wide Area Surveillance Platform (WASP) Capability. The contract stated the
contractor’s proposal was the statement of work. ERDC personnel obligated $2,550,000
to the WASP contract when it was issued.

September 30, 2010–Secretary of Defense assigned Rapid Acquisition Authority to
Blue Devil Block 2: The Secretary of Defense designated the Secretary of the Army as
the senior official to ensure the Blue Devil Air Ship initiative is acquired and deployed
as quickly as possible to eliminate combat capability deficiencies that have resulted in
combat fatalities. The Rapid Acquisition Authority gives the designated official, or his
designee, the authority to waive any provision of law, policy, directive or regulation that
such official determines, in writing, would unnecessarily impede the rapid acquisition
and deployment of the needed equipment.

October 2010–AFRL        and 645th Aeronautical Systems Group (AESG) completed
assessments of Blue Devil Block 2:          The Secretary of the Air Force requested




                                                                                          DODIG-2013-128 │ 33
Appendixes



                 Blue Devil Block 2 transition to an Air Force program office.            The Director for
                 Information Dominance, Office of the Assistant Secretary of the Air Force for
                 Acquisition (Director, SAF/AQI) requested the 645th AESG and AFRL personnel assess
                 the Blue Devil Block 2 initiative initiated by ERDC.          AFRL’s second assessment of
                 Blue Devil Block 2 determined the completion of Blue Devil Block 2 would take
                 30 months and cost between $231 million and $296 million. 645th AESG personnel
                 conclude Blue Devil Block 2 development and deployment in 12 months was not feasible
                 but stated 16 months might be possible. 645th AESG personnel notified the Director,
                 SAF/AQI, of their assessment.

                 October 15, 2010–ERDC received second funding disbursement for WASP: ERDC
                 received a $14 million Military Interdepartmental Purchase Request from the
                 Rapid Equipping Force for funding of WASP.

                 November 9, 2010–Blue Devil Block 2 “verbally” assigned to the 645th AESG: The Director,
                 SAF/AQI, “verbally” assigned the Blue Devil Block 2 system to the 645th AESG. 645th AESG
                 personnel did not take over the ERDC contract.

                 November 18, 2010–ERDC received third funding disbursement for WASP:                   ERDC
                 received a $16 million Military Interdepartmental Purchase Request from the 645 AESG
                                                                                                   th


                 for funding of WASP.

                 December 22, 2010–Director, SAF/AQI signed formal letter of direction: The Director,
                 SAF/AQI signed the formal letter of direction assigning Blue Devil Block 2 to the
                 645th AESG.

                 January 26, 2011 – Rapid Acquisition Authority Re-delegated to the Air Force: After the
                 Blue Devil Block 2 program was transferred to the 645th AESG, the Secretary of Defense
                 re-delegated the Rapid Acquisition Authority to assign the Secretary of the Air Force as
                 the senior official for the Blue Devil Air Ship initiative.

                 March 14, 2011–645th AESG awarded Blue Devil Block 2 contract: The 645th AESG awarded
                 MAV6 the Blue Devil Block 2 contract, FA8620-11-C-4024, valued at $86.2 million to
                 fabricate, assemble, and integrate a persistent ISR capability consisting of an airship
                 with multi-intelligence sensor payload and a ground station for Command and Control
                 of both airship and sensors. In addition, the 645th AESG provided the completed work
                 from the ERDC contract W912HZ-10-C-0085 to the contractor as Government-furnished
                 equipment. The capability for Blue Devil Block 2 consists of the following components




34 │ DODIG-2013-128
                                                                                                Appendixes



and subsystems: Airship, Payload Integration Infrastructure, Ground Station, Onboard
Data Processing and Management, and Mission Payload.

July 25, 2011–Forbearance letter sent to MAV6: 645th AESG personnel were alerted to
“multiple technical setbacks for the Blue Devil Block 2 program, and identified additional
technical and programmatic setbacks, that were projected to cause the program to
exceed the original baseline for cost and schedule.” In the Forbearance letter, the
645th AESG contracting officer requested MAV6 submit a detailed plan to recover the
program from the setbacks.

October 12, 2011–Recovery plan evaluation: 645th AESG personnel determined the
recovery plan MAV6 submitted in response to the Forbearance Letter was satisfactory.

January 4, 2012–Blue Devil Block 2 program “descope”: The 645th AESG contracting
officer issued a partial stop-work order that required the contractor to stop all work
associated with the integration and testing of mission payloads as called for by the
contract for a period of 90 days after receipt of the stop-work order, unless notified by the
contracting officer to continue work before the end of the 90-day period.

March 20, 2012–645th AESG issued cure notice: The 645th AESG contracting officer
issued a cure notice that stated “Recent issues and events during the past 30 days of
contract performance have generated serious concerns on behalf of the Government
as to the ability of Mav6, LLC to safely deliver the Blue Devil II Airship within the time
constraints and funds currently on contract.           Continued schedule delays, poor
subcontractor management, persistent weight and engineering challenges, and the
trend of recent test failures have raised serious questions about your capability to
complete this project within the current contractual schedule which expires 30 Jun 12.”
The cure notice also stated the Government had no plans to provide additional funding
and/or schedule relief.

April 2, 2012–Extension of partial stop-work order: The 645th AESG contracting officer
issued an extension to the partial stop-work order that was issued January 4, 2012, to
extend the provisions of the previous partial stop-work order.

May 1, 2012–ERDC implemented improved policies and procedures for the broad agency
announcement as a result of this audit and an Army Inspector General Peer Review:
ERDC’s improved policies and procedures for the broad agency announcement
added levels of review including: proposals submitted in response to ERDC’s broad
agency announcement are required to go through a pre-proposal process, which limits




                                                                                           DODIG-2013-128 │ 35
Appendixes



                 the proposal to 6 pages if an executive summary is present, review by the newly-
                 created ERDC Acquisition Strategy Board for potential awards over $2 million, and
                 Principal Assistant Responsible for Contracting approval, after a local peer review has
                 been completed, before the award for all contract awards off the broad agency
                 announcement over $10 million.

                 May 23, 2012–Pack and ship: The 645th AESG contracting officer sent MAV6 a letter
                 of direction because it was determined there was no chance of success or flight within
                 the costs and delivery schedule. The letter directed MAV6 “to immediately stop all
                 work associated with the development/delivery of the airship, cease and/or freeze all
                 subcontracts, and place no further orders except to the extent necessary to perform
                 disassembly, packing, and shipping the airship and equipment/hardware, or that which
                 you or the subcontractor wish to retain and continue for your own account.” Additionally,
                 all residual efforts and remaining contract funds were re-directed to the disassembly,
                 packing, and shipping of the equipment/hardware.

                 July 21, 2012–MAV6 deflated the Blue Devil Block 2 airship: MAV6 released nearly
                 $400,000 of helium out of the Blue Devil Block 2 airship, effectively ending development.

                 November 27, 2012–ERDC WASP contract end: The period of performance for the
                 ERDC WASP contract ended November 27, 2012. ERDC personnel spent a total of
                 $33,987,000 on this contract.

                 November 30, 2012–645th AESG Blue Devil Block 2 contract end:            The period of
                 performance for the 645 AESG Blue Devil Block 2 contract ended November 30, 2012.
                                          th


                 645th AESG personnel spent a total of $114,926,285 on this contract.




36 │ DODIG-2013-128
                                                                                            Appendixes




Appendix C
ERDC Broad Agency Announcement: Geotechnical and
Structures Lab Topic 10
J. Geophysical Phenomenology–Multi-Modal Geophysical Phenomenology, Modeling,
Data Processing, and Data Management (GSL-10)

The objectives include detecting, classifying, and locating airborne and ground
military targets and buried objects using geophysical methods for homeland defense
and homeland security applications. Also included are invasive and noninvasive
approaches for measuring and quantifying the geophysical/geologic signatures of
diverse geo-environments. This can include the development of new and/or
improved analytical and numerical models, rapid data-processing techniques, and new
subsurface imaging techniques that include active and passive sensor modalities in a
variety of rural and urban terrains.

Of particular interest is the broadband propagation of energy including, but not limited
to: seismic/acoustic/infrasonic/electromagnetic/thermal/chemical, under variable
conditions using a variety of sensing platforms (fixed, mobile, airborne, space). The
development of new tactics, techniques, and procedures for the employment of
novel sensing methods, as well as the development and/or verification of empirical
testing and evaluation techniques is also desirable. Data management and multimode
integration techniques and platforms are also of interest.




                                                                                       DODIG-2013-128 │ 37
Management Comments




                 Management Comments
                 AssistantSecretary
                 Assistant Secretaryofof the
                                       the AirAir Force
                                               Force forfor Financial
                                                         Financial
                 Management
                 Managementand andComptroller
                                    Comptroller Comments
                                                   Comments




                                    Click to add JPEG file




38 │ DODIG-2013-128
                                                   Management Comments



AssistantSecretary
Assistant Secretaryofof the
                      the AirAir Force
                              Force forfor Financial
                                        Financial
Management
Managementand andComptroller
                   Comptroller Comments
                                  Comments (cont’d)




                  Click to add JPEG file




                                                         DODIG-2013-128 │ 39
Management Comments



                 Principal Assistant
                 Principal AssistantResponsible
                                     Responsibleforfor Contracting–
                                                    Contracting -
                 Winchester
                 WinchesterComments
                              Comments




                                   Click to add JPEG file




40 │ DODIG-2013-128
                                                     Management Comments



Principal Assistant
Principal AssistantResponsible
                    Responsibleforfor Contracting–
                                   Contracting -
Winchester
WinchesterComments
             Comments (cont’d)




                  Click to add JPEG file




                                                           DODIG-2013-128 │ 41
Management Comments



                 Army
                 US    Corps
                    Army     of Engineers,
                          Corps            Engineer
                                of Engineers,        Research
                                              Engineer Researchand
                                                                and
                 DevelopmentCenter
                 Development   Center Comments
                                    Comments




                                  Click to add JPEG file




42 │ DODIG-2013-128
                                                     Management Comments



Army
US    Corps
   Army     of Engineers,
         Corps            Engineer
               of Engineers, EngineerResearch
                                      Researchand
                                               and
DevelopmentCenter
Development   Center Comments (cont’d)
                   Comments




                 Click to add JPEG file




                                                           DODIG-2013-128 │ 43
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                       645th AESG 645th Aeronautical Systems Group
                      Air Force A2 Air Force Intelligence, Surveillance, and Reconnaissance
                             AFRL Air Force Research Laboratory
                            ERDC Army Corps of Engineers Engineer Research and Development Center
                              FAR Federal Acquisition Regulation
                              GSL Geotechnical and Structures Laboratory
                               ISR Intelligence, Surveillance, and Reconnaissance
                         JCAAMP Joint Improvised Explosive Device Defeat Organization Capability Approval and
                                Acquisition Management Process
                          JIEDDO Joint Improvised Explosive Device Defeat Organization
                          SAF/AQ Assistant Secretary of the Air Force for Acquisition
                         SAF/AQI Director for Information Dominance Programs, Office of the Assistant Secretary of
                                 the Air Force for Acquisition
                            WASP Wide Area Surveillance Platform




44 │ DODIG-2013-128
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
